RULE 33.1(h) CERTIFICATE OF COMPLIANCE
No. 19-968
Chike Uzuegbunam and Joseph Bradford,
Petitioners,
v.
Stanley C. Preczewski, Jann L. Joseph, Lois C. Richardson, Jim B. Fatzinger,
Tomas Jiminez, Aileen C. Dowell, Gene Ruffin, Catherine Jannick Downey,
Terrance Schneider, Corey Hughes, Rebecca A. Lawler, and Shenna Perry,
Respondents.
As required by Supreme Court Rule 33.1(h), I, Eric D. McArthur, certify that
the Brief of Amicus Curiae Frederick Douglass Foundation, Inc. in Support of
Petitioners in the foregoing case contains 5,289 words, excluding the parts of the
document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on September 29, 2020.
/s/ Eric D. McArthur
ERIC D. MCARTHUR
SIDLEY AUSTIN LLP
1501 K Street, N.W.
Washington, D.C. 20005
(202) 736-8000

